Thomas M. Peterson
Partner
+1.415.442.1344
thomas.peterson@morganlewis.com

October 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Case No. 20-362
Cochlear Corporation, et al. v. Alfred E. Mann Foundation for Scientific
Research, et al.

Dear Mr. Harris:
Respondents Alfred E. Mann Foundation for Scientific Research and Advanced
Bionics respectfully request an extension of time in which to file their Brief in Opposition
to the Petition for a Writ of Certiorari, which is currently due on October 28, 2020.
Counsel for Respondents have a variety of other professional and personal obligations
that would make it difficult to complete the response before the current deadline.
Therefore, Respondents respectfully request, under Rule 30.4 of the rules of this Court,
an extension of 13 days, up to and including November 10, 2020. Petitioners consent to
the requested extension.
Respectfully submitted,

Thomas M. Peterson
Counsel for Respondent
Alfred E. Mann Foundation for
Scientific Research

Morgan, Lewis & Bockius
One Market Street, Spear Tower
San Francisco, CA 94105
United States

LLP

+1.415.442.1000
+1.415.442.1001

Honorable Scott S. Harris
October 21, 2020
Page 2
cc:

Kathleen M. Sullivan
Quinn Emanuel Urquhart & Sullivan, LLP
51 Madison Avenue, 22nd Floor
New York, NY 10010
kathleensullivan@quinnemanuel.com
Donald Falk
Mayer Brown LLP
Two Palo Alto Square, Suite 300
3000 El Camino Real
Palo Alto, CA 94306
dfalk@mayerbrown.com

